IN THE SUPREME COURT OF THE UNITED STATES
No. 19Fr,onnNcp BIxuNu,
Petition er,
V

UNnnn Srarss oF AMERICA
AND MICHAEL D. BIKUNDI, SR.,

Respondents

CERTIFICATE OF WORD COUNT
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying Petition for a Writ of Certiorari to the United States Court of Appeals

for the District of Columbia Circuit, which was prepared using Century Schoolbook
12-point typeface, contains 4,23L words, excluding the parts of the document that
are exempted by RuIe 33.1(d). This certificate was prepared in reliance on the

word-count function of the word-processing system (Microsoft Office Word 2013)
used to prepare the document.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on Februaty 14,2020

Andrew E. Goldsmith
Courusel of Record for Petitioner

